NOTE: This disposition is nonprecedential.

fHuiteb States Court of Appeals
for tJje Jfeberaf Circuit
MARK LOUIS SANDERS,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1032
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01138-EJD, Senior Judge Edward J.
Damich.
Decided: April 7, 2020
Mark Louis Sanders, Trafford, PA, pro se.
RICHARD L. Parker, Tax Division, United States De­
partment of Justice, Washington, DC, for defendant-appel­
lee. Also represented by BRUCE R. ELLISEN, RICHARD E.
ZUCKERMAN.
Before PROST, Chief Judge, DYKand O’MALLEY, Circuit
Judges.

APPENDIX A

2

SANDERS V. UNITED STATES

Per Curiam.
Mark Louis Sanders appeals an order from the Court
of Federal Claims (“Claims Court”) dismissing his com­
plaint. We affirm.

Background
On August 5, 2019, Sanders filed a complaint in the
Claims Court alleging that the United States had imposed
taxes on him without jurisdiction. On September 10, 2019,
the Claims Court, interpreting Sanders’ complaint as a tax
refund suit, dismissed Sanders’ complaint for failing to al­
lege facts necessary to establish the Claims Court’s tax re­
fund jurisdiction. Sanders filed this timely appeal. We
have jurisdiction under 28 U.S.C. § 1295(a)(3).
Discussion
“We review the Claims Court’s decision to dismiss for
lack of jurisdiction de novo.” Campbell v. United States,
932 F.3d 1331, 1336 (Fed. Cir. 2019). “We may affirm the
[Claims Court’s] dismissal on any ground supported by the
record.” Wyandot Nation v. United States, 858 F.3d 1392,
1397 (Fed. Cir. 2017).
The Claims Court “can take cognizance only of those
[claims] which by the terms of some act of Congress are
committed to it.” Hercules Inc. u. United States, 516 U.S.
417, 423 (1996) (alteration in original) (quoting Thurston
v. United States, 232 U.S. 469, 475 (1914)). On appeal,
Sanders argues that this is not a tax suit. However, Sand­
ers points to no other statute that would confer jurisdiction
to the Claims Court over his action.
There is no jurisdiction over this action as a tax refund
suit. Under 28 U.S.C. § 1346(a)(1), “[a] taxpayer seeking a
refund of taxes erroneously or unlawfully assessed or col­
lected may bring an action against the Government either
in United States district court or in the United States
Court of Federal Claims.” United States u. Clintwood

SANDERS V. UNITED STATES

3

Elkhorn Mining Co., 553 U.S. 1, 4 (2008). However, to
bring a suit for illegally collected taxes, the taxpayer seek­
ing a refund must “comply with tax refund procedures set
forth in the [Internal Revenue] Code.” Id. “These princi­
ples [also] are fully applicable to claims of unconstitutional
taxation.” Id. at 9.
On this record, we see no error in the district court’s
finding that Sanders has not alleged “any evidence that he
has pre-paid the principal tax deficiency—the first prereq­
uisite to tax-refund jurisdiction.” Sanders v. United States,
145 Fed. Cl. 37, 38 (2019) (citing Shore v. United States,
9 F.3d 1524, 1527 (Fed. Cir. 1993)).
The Claims Court correctly found that “Sanders has
not established tax refund jurisdiction, or any other basis
for his suit.” Id. We conclude that the Claims Court’s dis­
missal of Sanders’ complaint must be
AFFIRMED

*

®mteb States Court ot appeals
for tf)e Jfeberal Circuit
MARK LOUIS SANDERS,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1032
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01138-EJD, Senior Judge Edward J.
Damich.

JUDGMENT
THIS Cause having been considered, it is

' Ordered and Adjudged:
AFFIRMED
Entered By Order Of The Court
April 7. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3Jtt tl)t ®tuteb states? Court of jfpbetal Claims
No. 19-1138T
(Filed: September 10,2019)

MARK LOUIS SANDERS,
Plaintiff,

THE UNITED STATES,
Defendant.

ORDER OF DISMISSAL
On August 5, 2019, Plaintiff, Mark Louis Sanders, acting pro se, filed a Complaint with
this Court alleging that the Defendant, the United States, imposed taxes on him without
jurisdiction between years 1977 and 2018.1 Compl., ECF No. 1. In support, Plaintiff attached an
Order of Dismissal for Lack of Jurisdiction from the United States Tax Court.2 See Compl., Ex.
A.
Under the Tucker Act, 28 U.S.C, § 1491, the Court of Federal Claims has jurisdiction
over tax refund suits if certain prerequisites are met.3 See United States v. Clintwood Elkhorn
Mining Co,, 553 U.S. 1,4 (2008). First, a plaintiff must satisfy the full payment rule, which
requires that the principal tax deficiency be paid in full. See Shore v. United States, 9 F,3d
1524,1526-27 (Fed. Cir. 1993); see also Flora v. United States, 357 U.S, 63, 68 (1958). Second,
4he.plaintiffmustrtimely^ile^4ax^efvmd=daim-with-,the-I.RS..- -5,a&;264JvSX. § 7422(a) (“(njo-suit-:~—
or proceeding shall be maintained in any court for the recovery of any internal revenue tax
alleged to have been erroneously or illegally assessed or collected . , , until a claim for refund or
l

This Complaint is part of a recent trend of similar cases filed by individuals challenging
the jurisdiction of the IRS based, in part, on petitions previously dismissed by the U.S. Tax
Court. The Court of Federal Claims has received twenty similar complaints from pro se
plaintiffs since November 2018.
2 In addition, Plaintiff filed an application to proceed in forma pauperis, which the Court
denied on August 23, 2019. On August 29,2019, Plaintiff tendered the requisite $400 filing fee.
3 The jurisdiction of the Court of Federal Claims under the Internal Revenue Code is
generally limited to the adjudication of tax refund suits. Zolman v. United States, No. 15-1116T,
2015 WL 7266624, at *1 (Fed. Cl. Nov. 12,2015).

APPENDIX B

/

credit has been duly filed with the Secretary . . .”)• Third, the plaintiff must provide the amount,
date, and place of each payment to be refunded, as well as a copy of the refund claim when filing
suit in the Court of Federal Claims. RCFC 9(m). Unless a plaintiff satisfies these prerequisites,
the Court of Federal Claims lacks jurisdiction to hear a tax refund suit.
Although a pro se plaintiffs pleadings are generally held to “less stringent standards”
than those of a professional lawyer, Haines v. Kerner, 404 U.S. 519, 520-21 (1972) (requiring
that allegations contained in a pro se complaint be held to “less stringent standards than formal
pleadings drafted by l awyers”), the Court cannot extend this leniency to relieve plaintiffs of their
jurisdictional burden. Kelley v. Sec'y, U.S. Dep'l of Labor, 812 F.2d 1378, 1380 (Fed. Cir, 1987).
Pursuant to 28 U.S.C. § 1915(e)(2)(B), the Court is required to dismiss a case if at any time it
-determines that4he-aGti0n-oi-appeaUs2l-frivolous-:onmaliciousT-or-2fails.to_slaten-cl3hnjinJwhi.eh__.
relief may be granted.”
In this case, Mr. Sanders’ Complaint is so irreparably deficient that it fails to state a claim
Upon which relief may be granted. Specifically, Mr, Sanders alleges that the United States
imposed taxes on him without jurisdiction but fails to provide any evidence that he has pre-paid
the principal tax deficiency—the first prerequisite to tax-refund jurisdiction. See generally,
Compl, Instead, Mr. Sanders attached an Order of Dismissal for Lack of Jurisdiction from the
United States Tax Court, in which the Tax Court dismissed Mr. Sanders’ petition for failing to
establish the jurisdictional prerequisites for bringing a claim in that Court. See Compl,, Exs. A &
B. Such a dismissal cannot serve as the basis for a claim in this Court. As Mr. Sanders has not
established tax refund jurisdiction, or any other basis for his suit, Mr. Sanders has failed to state a
claim upon which relief may be granted.
Accordingly, Plaintiffs case is hereby DISMISSED. The Clerk is directed to enter
judgment accordingly.
IT IS SO ORDERED.

- dwKC.Y B. FIRESTONE
Senior Judge
For
EDWARD J. DAMICH
Senior Judge

2

CT

UNITED STATES TAX COURT
WASHINGTON, DC 20217

MARK LOUIS SANDERS,

)
)

Petitioner,

)
)

v.

) Docket No. 6302-18.
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent

)
)

ORDER OF DISMISSAL FOR LACK OF JURISDICTION
This case is before the Court on respondent’s Motion To Dismiss for Lack of
Jurisdiction and To Impose a Penalty under I.R.C. section 6673, filed May 21,
2018, on the grounds that: (1) no notice of deficiency was issued to petitioner for
tax years 1977 through 2018; (3) no notice of determination concerning collection
action was issued to petitioner for tax years 1977 through 2018; and (4) respondent
has not made any other determination with respect to tax years 1977 through 2018
that would confer jurisdiction on the Court. In his motion, respondent requests that
the Court impose an I.R.C. section 6673 penalty. That section authorizes the Court
to require a taxpayer to pay to the United States a penalty not in excess of $25,000
whenever it appears that proceedings have been instituted or maintained by the
taxpayer primarily for delay or that the position of the taxpayer in such proceeding
is frivolous or groundless.
Although the Court directed petitioner to file an objection, if any, to
respondent’s motion to dismiss, petitioner failed to do so.
Taking into account statements made in the petition and for reasons set forth
in respondent’s above-mentioned motion, it is
ORDERED that so much of respondent’s motion that seeks dismissal of the.
case is granted; in all other respects respondent’s motion is denied. It is further

CERTIFIED TRUE COPY
STEPHANIE A^SERVOSS, CLERK
SERVED Oct 22 2018

APPENDIX C

/ //

■MPtrfY CLERK

-2/
/

ORDERED that with respect to each year placed in issue in the petition, this
case is dismissed for lack of jurisdiction upon the ground stated in respondent’s
motion.
Although an I.R.C. section 6673 penalty will not be imposed here, petitioner
is admonished that the Court will consider imposing such a penalty in future cases
commenced by petitioner seeking similar relief under similar circumstances.

Maurice B. Foley
Chief Judge
ENTERED:

OCT 22 2018

